U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

March 24, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Kashus Davis v. United States of America,
S.Ct. No. 20-7286

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on February 25,
2021, and placed on the docket on March 1, 2021. The government’s response is due on March
31, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including April 30, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7286
DAVIS, KASHUS
USA

ANDREW LEE ADLER
FEDERAL PUBLIC DEFENDER'S OFFICE
ONE EAST BROWARD BLVD.
STE. 1100
FORT LAUDERDALE, FL 33301
ANDREW_ADLER@FD.ORG

